 t- StlW1ctS




('~
\,,~t
                                           DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                                       OFFICE OF AUDIT SERVICES
                                                      233 NORTH MICHIGAN AVENUE                                             REGION
                                                                                                                            OFFICE
                                                                                                                                   V
                                                                                                                                  OF
                                                        CHICAGO. ILLINOIS 60601                                        INSPECTOR GENERAL

                                                          September 23,2009



          Report Number: A-05-07-00083

          Mr. Chuck Nelson
          President and ChiefExecutive Officer
          Aspirus Keweenaw Hospital
          205 Osceola Street
          Laurium, Michigan 49913

          Dear Mr. Nelson:


          Enclosed is the U.S. Department of                        Health and Human Services (HHS), Office ofInspector
          General (OIG), final report entitled "Review of Select Medicare Conditions of                         Participation and
          Costs Claimed at Aspirus Keweenaw Hospital from August 1, 2004, Through September 30,
          2006." We wil forward a copy of                         this report to the HHS action official noted on the following
          page for review and any action deemed necessary.

         The HHS action official will make final determination as to actions taken on all matters reported.
         We request that you respond to this official within 30 days from the date of this letter. Your
         response should present any comments or additional information that you believe may have a
         bearing on the final determination.

          Section 8L ofthe Inspector General Act, U.S.C. App., requires that OIG post its publicly
          available reports on the OIG Web site. Accordingly, this report will be posted at
         htt:// oig.hhs. gov.


         If you have any questions or comments about this report, please do not hesitate to call me, or
         contact Jaime Saucedo, Audit Manager, at (312) 353-8693 or through email at
         jaime.saucedo@oig.hhs.gov. Please refer to report number A-05-07-00083 in all
         correspondence.

                                                                  Sincerely,

                                                                ¡M~7
                                                                  Marc Gustafson
                                                                  Regional Inspector General
                                                                   for Audit Services


         Enclosure
Page 2 - Mr. Chuck Nelson


Direct Reply to HHS Action Official:

Nanette Foster Reily
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 1ih Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF SELECT MEDICARE
CONDITIONS OF PARTICIPATION
   AND COSTS CLAIMED AT
ASPIRUS KEWEENAW HOSPITAL
    FROM AUGUST 1, 2004,
THROUGH SEPTEMBER 30, 2006




               ~ SERVICES


       'i.:,,~i- ~          Daniel R. Levinson
                             Inspector General

       t~JíL
        "'",
           .l/¡t-dJO
                             September 2009
                              A-05-07-00083
                              Offce of Inspector General
                                                       http:// oig.hhs.gov



The mission of        the Offce of          Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of               the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carred out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Offce of Audit Services

The Offce of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrng out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and effciency throughout HHS.

Offce of Evaluation and Inspections
The Offce of  Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues. These
evaluations focus on preventing fraud, waste, or abuse and promoting economy, effciency, and
effectiveness of departmental programs. To promote impact, OEI reports also present practical
recommendations for improving program operations.

Office of Investigations

The Offce of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With investigators
working in alISO States and the District of                   Columbia, 01 utilzes its resources by actively
coordinating with the Department of Justice and other Federal, State, and local                   law enforcement
authorities. The investigative efforts of                 01 often lead to criminal convictions, administrative
sanctions, and/or civil monetary penalties.

Offce of Counsel to the Inspector General
The Offce of        Counsel to the Inspector General (OCIG) provides general               legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all      legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8 L of the Inspector General Act, 5 U.S.C. App., requires that
DIG post its publicly available reports on the DIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of DAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Section 4201 of the Balanced Budget Act of 1997, P.L. No. 105-33, Social Security Act, § 1820,
42 U.S.C. § 1395i-4, authorized States to establish Medicare Rural Hospital Flexibility Programs
and to designate certain facilities as Critical Access Hospitals (CAH). CAHs must meet certain
Medicare Conditions of Participation (CoP) (42 CFR §§ pt. 485, subpart F) and guidelines
established by the Centers for Medicare & Medicaid Services (CMS), which administers the
Medicare program.

Section 405(e) of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(MMA), P.L. No. 108-173, Social Security Act, § 1820(c)(2)(B)(iii), 42 U.S.C. § 1395i-
4(c)(2)(B)(iii), allowed CAHs to have up to 25 inpatient beds that could be used for acute care or
swing-bed services, with CMS approval. The CMS State Operations Manual (SOM), Pub. No.
100-7, Appendix W, section C-0211, effective May 21, 2004, references requirements at 42 CFR
§ 485.620(a) and, for the audit period (April 1, 2004, through September 30, 2006), stated that
outpatient observation patients should not be commingled with inpatients. Section 405(a) of the
MMA, Social Security Act §§ 1814(l), 1834(g)(1) and 1883(a)(3), 42 U.S.C. §§ 1395f(l),
1395m(g)(1) and 1395tt(a)(3), allowed CAHs to receive Medicare reimbursement totaling 101
percent of allowable, allocable, and reasonable costs for payments for services furnished during
cost reporting periods beginning on or after January 1, 2004.

OBJECTIVES

Our objectives were to determine whether the hospital complied with select Medicare CoP and
reported costs that were allowable, allocable, and reasonable on its 2004, 2005, and 2006
Medicare cost reports in accordance with Federal requirements.

SUMMARY OF FINDINGS

The hospital was noncompliant with Medicare CoP during the audit period because it
commingled inpatients with observation patients. A review of daily census reports indicated 253
instances during the audit period when inpatient beneficiaries were commingled with observation
patients in the same room on the same day. The hospital commingled inpatient and observation
patients because staff believed that existing Federal requirements conflicted with informal CMS
guidance that was provided indirectly to the hospital. However, hospital daily census reports
indicated that inpatient and observation patients were commingled before the hospital indirectly
received the informal guidance. In addition, the hospital reported unallowable costs totaling
$294,479 on its 2004, 2005, and 2006 Medicare cost reports.




                                                i
RECOMMENDATIONS

We recommend that the hospital:

       	 ensure that it is compliant with the Medicare CoP by following CMS guidance related
          to commingling of inpatient with observation patients;

       	 revise and resubmit its Medicare cost reports for 2004, 2005, and 2006, to properly
          reflect the exclusion of the $294,479 in unallowable costs; and

       	 ensure that it only reports allowable costs on future Medicare cost reports.

HOSPITAL COMMENTS

In written comments on our draft report, the hospital said that it generally acknowledged and
accepted the report except for the finding that the hospital reported unallowable costs totaling
$199,270. The hospital said that the costs were allowable because they were reasonable,
necessary, and proper costs in developing and maintaining the operation of its patient care
facilities and activities.

The hospital’s comments are included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the hospital’s comments, we maintain that our findings and recommendations
are valid. Federal regulations (42 CFR § 413.9) provide that payments to a hospital must be
based on the reasonable cost of Medicare services and related to the care of beneficiaries. The
costs were not necessary and proper costs related to patient care as required by the Federal
regulations.




                                                 ii
                                                 TABLE OF CONTENTS 


                                                                                                                    Page

INTRODUCTION...................................................................................................... 1 


          BACKGROUND ............................................................................................. 1 

              Critical Access Hospitals ..................................................................... 1 

              Aspirus Keweenaw Hospital................................................................ 1 


          OBJECTIVES, SCOPE, AND METHODOLOGY......................................... 1 

               Objectives ............................................................................................ 1 

               Scope.................................................................................................... 2 

               Methodology ........................................................................................ 2 


FINDINGS AND RECOMMENDATIONS ............................................................ 2 


          COMMINGLING INPATIENT AND OBSERVATION PATIENTS............ 3 

              Federal Requirements .......................................................................... 3                

              Commingling Patients.......................................................................... 3                 


          UNALLOWABLE COSTS. ............................................................................ 4 

              Severance Pay ...................................................................................... 4 

              Donations ............................................................................................. 5 

              Lobbying .............................................................................................. 5 


          RECOMMENDATIONS................................................................................. 6                   


          HOSPITAL COMMENTS............................................................................... 6 


          OFFICE OF INSPECTOR GENERAL RESPONSE ...................................... 6 


APPENDIX

          HOSPITAL COMMENTS




                                                                  iii
                                              INTRODUCTION 


BACKGROUND

Critical Access Hospitals

Section 4201 of the Balanced Budget Act of 1997, P.L. No. 105-33, Social Security Act, § 1820,
42 U.S.C. § 1395i-4, authorized States to establish Medicare Rural Hospital Flexibility Programs
and to designate certain facilities as Critical Access Hospitals (CAH). CAHs must meet certain
Medicare Conditions of Participation (CoP) (42 CFR §§ pt. 485, subpart F) and guidelines
established by the Centers for Medicare & Medicaid Services (CMS), which administers the
Medicare program.

Section 405(e) of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(MMA), P.L. No. 108-173, Social Security Act, § 1820(c)(2)(B)(iii), 42 U.S.C. § 1395i-
4(c)(2)(B)(iii), allowed CAHs to have up to 25 inpatient beds that could be used for acute care or
swing-bed services, with CMS approval. 1 The CMS State Operations Manual (SOM), Pub. No.
100-7, Appendix W, section C-0211, effective May 21, 2004, references requirements at 42 CFR
§ 485.620(a) and, for the audit period (April 1, 2004, through September 30, 2006), stated that
outpatient observation patients should not be commingled with inpatients. Section 405(a) of the
MMA, Social Security Act §§ 1814(l), 1834(g)(1) and 1883(a)(3), 42 U.S.C. §§ 1395f(l),
1395m(g)(1) and 1395tt(a)(3), allowed CAHs to receive Medicare reimbursement totaling 101
percent of allowable, allocable, and reasonable costs for payments for services furnished during
cost reporting periods beginning on or after January 1, 2004.

Aspirus Keweenaw Hospital

Aspirus Keweenaw Hospital (the hospital), located in Larium, Michigan, is a not-for-profit
corporation. On August 1, 2004, the State of Michigan designated the hospital a necessary
provider and CAH under 42 CFR § 485.606. The hospital provides inpatient, outpatient,
emergency, medical and physician clinic services. The hospital received Federal reimbursement
totaling $16 million for costs reported on its 2004, 2005, and 2006 Medicare cost reports.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the hospital complied with select Medicare CoP and
reported costs that were allowable, allocable, and reasonable on its 2004, 2005, and 2006
Medicare cost reports in accordance with Federal requirements.




1
 A swing-bed can be used interchangeably for either inpatient care or skilled nursing care. A patient
“swings” or transitions from receiving inpatient services to receiving skilled nursing services.



                                                         1

Scope

We reviewed the hospital’s compliance with select Medicare CoP and costs reported for the
period August 1, 2004, through September 30, 2006. 2 We also reviewed the hospital’s daily
census reports for the same period. 3

We limited our internal control review to obtaining an overall understanding of the hospital’s
policies and procedures for complying with the Medicare CoP and reporting costs on its
Medicare cost reports.

We performed our fieldwork at the hospital located in Larium, Michigan.

Methodology

To accomplish our objectives, we:

    	 reviewed applicable Federal CAH requirements;

    	 reviewed the hospital’s policies and procedures related to compliance with select 

       Medicare CoP and cost reporting requirements; 


    	 reviewed daily census reports to determine whether the hospital complied with CMS
       guidance related to commingling of inpatient and observation patients;

    	 analyzed the hospital’s financial statements and Medicare cost reports for the audit period
       and determined whether reported costs were allowable, allocable, and reasonable; and

    	 observed the number of inpatient beds available for use on November 27, 2007.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                               FINDINGS AND RECOMMENDATIONS

The hospital was noncompliant with Medicare CoP during the audit period because it
commingled inpatients with observation patients. A review of daily census reports indicated 253
instances during the audit period when inpatient beneficiaries were commingled with observation

2
 The hospital’s Medicare cost reporting period is October 1 through September 30. The hospital became a CAH in
August 1, 2004. We reviewed three cost reporting periods: the 2-month period starting August 1, 2004, through
September 30, 2004 (after CAH conversion); and the two 12-month periods ending September 30, 2005 and 2006.
3
 Daily census reports provide patient information such as name, the level of care being provided, location within the
hospital, and admission information.


                                                          2

patients in the same room on the same day. The hospital commingled inpatient and observation
patients because staff believed that existing Federal requirements conflicted with informal CMS
guidance that was provided indirectly to the hospital. However, hospital daily census reports
indicated that inpatient and observation patients were commingled before the hospital indirectly
received the informal guidance. In addition, the hospital reported unallowable costs totaling
$294,479 on its 2004, 2005, and 2006 Medicare cost reports.

COMMINGLING INPATIENT AND OBSERVATION PATIENTS

The hospital was noncompliant with a Medicare CoP because it commingled inpatients with
observation patients in the same room and on the same day.

Federal Requirements

Federal regulations at 42 CFR § 485.620(a) state that CAHs may maintain “no more than 25
inpatient beds after January 1, 2004, that can be used for either inpatient or swing-bed services.”
The CMS State Operations Manual (SOM), Pub. No. 100-7, Appendix W, Tag C-0211, effective
May 21, 2004, interpreted that requirement and stated, “Outpatient observation patients should
not be commingled with inpatients.” In April 2008, CMS updated the SOM and excluded this
language from section C-0211, but did not indicate whether commingling patients was allowable.

Commingling Patients

Contrary to the SOM in effect during the audit period, the hospital commingled inpatient and
observation patients on 253 instances. Hospital daily census reports showed that during our
audit period, the hospital provided services to inpatient and observation patients in the same
room on the same day on 253 occasions.

The hospital commingled inpatient with observation patients because staff believed that existing
Federal requirements conflicted with informal CMS guidance that was provided indirectly to the
hospital. The hospital stated it indirectly received informal guidance from CMS on March 15,
2005, that indicated that CMS did not intend to not allow commingling and that the SOM would
be updated to remove such language. 4 When CMS updated the SOM in April 2008, CMS
excluded language prohibiting commingling patients. However, neither the SOM nor the
accompanying transmittal letter stated or implied that commingling patients was allowable.
CMS issued no clarification or guidance regarding the removal of language prohibiting
commingling patients. Moreover, it was improper to rely on third-hand, informal guidance.




4
 Through email, the CMS Denver Regional Office communicated to the Colorado Rural Health Center that the
commingling language was not intended to be included in the SOM. The informal guidance was shared with the
Department of Health and Human Services’ Health Resources & Services Administration Agency, which in turn
shared the guidance with the hospital’s rural health liaison group at Michigan State University. The hospital
received the informal guidance from the liaison group through email on March 15, 2005.



                                                       3

Our review of hospital daily census reports indicated that inpatient and observation patients were
commingled before the hospital indirectly received the informal guidance as indicated in the
following table.

                                Table 1: Commingling Patients
                                                                 Instances of
                           Time Period                        Commingling Patients
           August 1, 2004, through March 14, 2005                    105
           March 15, 2005, through September 30, 2006                148
           Total                                                     253

Commingling patients could affect the level of care provided to a patient, and, if wrongly
identified as an observation patient, a Medicare beneficiary could be required to make co-
insurance payments not required under inpatient status. Therefore, it is important that a hospital
makes a clear distinction in determining the level of care a patient requires in deciding whether a
beneficiary should be admitted or placed under observation. Because the hospital commingled
patients, it was noncompliant with the related CoP specified at 42 CFR § 485.620(a).

UNALLOWABLE COSTS

The hospital reported unallowable costs totaling $294,479 related to severance pay ($199,270), 

donations ($89,052), and lobbying ($6,157) on its 2004, 2005, and 2006 Medicare cost reports. 


Severance Pay

Federal regulations (42 CFR § 413.9) and the CMS Provider Reimbursement Manual, chapter
21, sections 2102.1 and 2102.2, provide that payments to a hospital must be based on the
reasonable cost of Medicare services and related to the care of beneficiaries. Necessary and
proper costs are costs that “are appropriate and helpful in developing and maintaining the
operation of patient care facilities and activities” and “are usually costs that are common and
accepted occurrences in the field of the provider's activity.” 42 CFR § 413.9(b)(2).

The hospital reported unallowable costs totaling $199,270 for severance payments and costs
related to the resignation of its chief executive officer (CEO) on its 2004 and 2005 Medicare cost
reports as detailed in Table 2.

                      Table 2: CEO’s Severance Pay and Related Costs
                                 FY 2004          FY 2005          Total
           Severance pay         $16,334         $166,509        $182,843
           Legal fees             16,427                            16,427
            Total Costs          $32,761         $166,509        $199,270

The Employment Agreement between the CEO and the hospital did not require severance
payments set forth in the Severance Agreement. Under the Employment Agreement, the CEO
was to be employed full-time for a period of nine years as the hospital’s President and CEO and
on an “as needed” basis for a period of two years upon completion of his full-time employment.


                                                 4

Pursuant to the Employment Agreement, in the event of termination of the Agreement and the
CEO’s employment “for any reason” during the initial nine-year term, the CEO was only entitled
to receive “compensation or other benefits to which [he] was entitled for services performed
through the last active date of employment under this Agreement.” The CEO was not entitled to
any post-employment compensation or benefits because the Employment Agreement was
terminated by mutual agreement upon the CEO’s resignation. Moreover, the hospital’s written
or otherwise established severance policy did not require the severance payment. The hospital
had no legal obligation to make severance payments nor an established personnel policy to grant
severance pay. Consequently, severance payments of $182,843 and related legal fees of $16,427
were not necessary and proper costs related to patient care as required by 42 CFR § 413.9.

Donations

The CMS Provider Reimbursement Manual, chapter 21, section 2105.7, “Costs of Gifts or
Donations,” states “costs incurred by providers for gifts or donations to charitable, civic,
educational, medical or political entities are not allowable.”

The hospital reported unallowable costs totaling $89,052 related to contributions and donations
to trade associations, charities, or civic entities on its 2004, 2005, and 2006 Medicare cost reports
as detailed in Table 3.

                                Table 3: Unallowable Donations
                                FY 2004      FY 2005     FY 2006                Total
            Donations           $13,242      $31,749      $44,061              $89,052

Pursuant to CMS requirements, these costs are unallowable.

Lobbying

The CMS Provider Reimbursement Manual, chapter 21, section 2139, “Political and Lobbying
Activities,” states, “Provider political and lobbying activities are not related to the care of
patients. Therefore, costs incurred for such activities are unallowable.” Furthermore,
section 2139.3, “Organization Dues Related to Lobbying and Political Activities,” states, “Trade
or other organizations and associations often engage in lobbying and political activities.
Therefore, . . . the portion of an organization's dues or other payments related to these activities,
. . . is an unallowable cost.”

The hospital reported unallowable costs totaling $6,157 related to lobbying activities on its 2004, 

2005, and 2006 Medicare cost reports as detailed in Table 4. 


                               Table 4: Unallowable Lobbying Costs
                                 FY 2004     FY 2005    FY 2006                 Total
                      Lobbying    $267        $2,617     $3,273                 $6,157

The unallowable costs included the lobbying activities’ portion of association dues.



                                                  5

RECOMMENDATIONS

We recommend that the hospital:

        	 ensure that it is compliant with the Medicare CoP by following CMS guidance related
           to commingling of inpatient with observation patients;

        	 revise and resubmit its Medicare cost reports for 2004, 2005, and 2006, to properly
           reflect the exclusion of the $294,479 in unallowable costs; and

        	 ensure that it only reports allowable costs on future Medicare cost reports.

HOSPITAL COMMENTS

In written comments on our draft report, the hospital said that it generally acknowledged and
accepted the report, except for the finding that the hospital reported unallowable costs totaling
$199,270 for severance pay and related legal costs.

Regarding the former CEO’s severance pay, the hospital said that the costs were allowable
because they were reasonable, necessary, and proper costs in developing and maintaining the
operation of its patient care facilities and activities. Additionally, the hospital said that it had a
legal obligation to pay the CEO under the Employment Agreement and the severance payment
was an accepted business practice in the health care field.

The hospital’s comments are included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the hospital’s comments, we maintain that our findings and recommendations
are valid. The Employment Agreement between the CEO and the hospital did not require
severance payments because the Employment Agreement was terminated by mutual agreement
upon the CEO’s resignation. Therefore, the severance pay and related legal costs were not
necessary and proper costs related to patient care as required by 42 CFR § 413.9.




                                                   6

APPENDIX 

APPENDIX
 Page 1 of 5
                                                                                APPENDIX
                                                                                 Page 2 of 5




Office of Inspector General Note—The deleted text has been redacted because it
contained confidential information that could violate the confidentiality provisions of
the CEO’s Employment and Severance Agreements.
                                                                                  APPENDIX
                                                                                   Page 3 of 5




Office of Inspector General Note—The deleted text has been redacted because it
contained confidential information that could violate the confidentiality provisions of
the CEO’s Employment and Severance Agreements.
                                                                                APPENDIX
                                                                                 Page 4 of 5




Office of Inspector General Note—The deleted text has been redacted because it
contained confidential information that could violate the confidentiality provisions of
the CEO’s Employment and Severance Agreements.
                                                                             APPENDIX
                                                                              Page 5 of 5




Office of Inspector General Note—The deleted text has been redacted because it is
personally identifiable information.
